App. 1
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 19-50261
Summary Calendar
FREDERICK COLLINS FERMIN,
Plaintiff - Appellant
v.
PRIEST OF SAINT MARY-MARFA, TEXAS;
DIOCESE OF EL PASO, TEXAS,
Defendants - Appellees
Appeal from the United States District Court
for the Western District of Texas
USDC No. 3:18-CV-327
(Filed Jul. 24, 2019)
Before JOLLY, HIGGINSON, and COSTA, Circuit
Judges.
GREGG COSTA, Circuit Judge:*
Frederick Collins Fermin sued the Diocese of El
Paso and an unnamed priest for using a crucifix during
his baptism in 1925. He alleges that the priest did so
* Pursuant to 5th Cir. R. 47.5, the court has determined that
this opinion should not be published and is not precedent except
under the limited circumstances set forth in 5th Cir. R. 47.5.4.

App. 2
“in violation of God’s law,” citing, among other Bible
verses, the Second Commandment’s prohibition of idol­
atry. See EXODUS 20:4. The district court granted the
Diocese’s motion to dismiss for lack of subject matter
jurisdiction, and we affirm.
Fermin says the district court had both diversity
and federal question jurisdiction. See 28 U.S.C.
§§ 1331,1332. But he did not meet his burden of plead­
ing facts in support of either. See Howery v. Allstate
Ins. Co., 243 F.3d 912, 919 (5th Cir. 2001). Diversity ju­
risdiction requires complete diversity of citizenship—
that is, neither defendant can be a citizen of the same
state as Fermin. Stafford v. Mobil Oil Corp., 945 F.2d
803,804 (5th Cir. 1991). Fermin fails to allege state cit­
izenships for himself or the defendants. That “failure
adequately to allege the basis for diversity jurisdiction
mandates dismissal.” Id. at 805. Plus, as the district
court observed, by all appearances there is not com­
plete diversity: Fermin’s signature block on his com­
plaint lists a San Antonio address, and the Diocese is
presumably an El Paso resident.
Moving to federal question jurisdiction, we note
that Fermin raises a First Amendment claim. That
claim arises under federal law, so it survives a chal­
lenge to subject matter jurisdiction unless it is so “com­
pletely devoid of merit as not to involve a federal
controversy.” Steel Co. v. Citizens for a Better Env’t, 523
U.S. 83, 89 (1998) (quoting Oneida Indian Nation of
N.Y. v. Cty. of Oneida, 414 U.S. 661, 666 (1974)). But a
First Amendment claim against a church and a priest
cannot meet that low bar. The First Amendment

App. 3
constrains state action, not private conduct. Manhat­
tan Cmty. Access Corp. v. Halleck, 139 S. Ct. 1921,1928
(2019). Churches and priests are not state actors. In­
deed, if the First Amendment had any role to play in
this case, it would be to warn us against delving into a
dispute about religious doctrine. See Serbian E. Ortho­
dox Diocese for U.S. & Canada v. Milivojevich, 426 U.S.
696, 709 (1976).
We thus need not consider Fermin’s argument that
the district court erred in denying his motion for de­
fault judgment. The Diocese admits that it filed its an­
swer two days late. But without subject matter
jurisdiction, the district court could not have granted a
default judgment even if one had been warranted.
Mitchell v. Texas, 56 F.3d 1385,1995 WL 337749, at *1
(5th Cir. 1995) (per curiam).

The district court’s judgment is AFFIRMED.

App. 4
UNITED STATES DISTRICT COURT WESTERN
DISTRICT OF TEXAS EL PASO DIVISION
FREDERICK COLLINS §
FERMIN,
§
Plaintiff,

§
§

v.

§ EP-18-CV-00327-DCG

DIOCESE OF
EL PASO, TEXAS,

§
§
§
§

Defendant.

MEMORANDUM ORDER
(Filed Mar. 14, 2019)
Presently before the Court is Defendant Diocese of
El Paso, Texas’ “Motion to Dismiss” (ECF No. 11) filed
on March 1,2019.1 Therein, Defendant alleges that the
Court lacks subject matter jurisdiction over this mat­
ter and requests that the Court dismiss the case. Mot.
at 5. Plaintiff Frederick Collins Fermin filed a Com­
plaint asserting both diversity jurisdiction and federal
question jurisdiction. Compl. at 1, ECF No. 1. By his
Complaint, Plaintiff alleges that Defendant violated
Christian laws and doctrines, entitling Plaintiff to

1 The caption of the Complaint is unclear whether Plaintiff
intended to sue both the Diocese of El Paso and an unnamed
priest or if he only intended to sue the unnamed priest. However,
Plaintiff served the Diocese, which answered, so the Court will
' construe the Diocese as the defendant because the priest is un­
named.

App. 5
relief. Id. at 1-2. For the reasons that follow, the Court
GRANTS Defendant’s Motion.
A motion pursuant to Rule 12(b)(1) “allow[s] a
party to challenge the subject matter jurisdiction of the
district court to hear a case.” Ramming v. United
States, 281 F.3d 158, 161 (5th Cir, 2001) (per curiam)
(citing Fed. R. Civ. R 12(b)(1)). The party asserting ju­
risdiction bears the burden of proving that jurisdiction
exists. Id. If the party does not meet its burden, the
court must dismiss the action. See Fed R. Civ. P.
12(h)(3). A court should only grant a motion to dismiss
for lack of subject matter jurisdiction “if it appears cer­
tain that the plaintiff cannot prove any set of facts in
support of his claim that would entitle plaintiff to re­
lief.” Ramming, 281 F.3d at 161 (citing Home Builders
Ass’n of Miss., Inc. v. City of Madison., 143 F.3d 1006,
1010 (5th Cir. 1998)).
First, the Court considers whether it has diversity
jurisdiction. Where jurisdiction is premised upon di­
versity, 28 U.S.C. § 1332, the removing party bears the
burden of establishing, by a preponderance of the evi­
dence, both that the parties are diverse and that the
amount in controversy exceeds $75,000, exclusive of in­
terest and costs. New Orleans & Gulf Coast Ry. Co. v.
Barrois, 533 F.3d 321, 327 (5th Cir. 2008); Garcia v.
Koch Oil Co. of Texas Inc., 351 F.3d 636, 638 (5th Cir.
2003). In his Complaint, Plaintiff failed to plead both
the amount in controversy and the citizenship of the
parties. See generally Compl. However, based on his
signature block, it appears that Plaintiff resides in San
Antonio, Texas, seemingly making him a citizen of

App. 6
Texas. See id. at 3; Alphonse u. Arch Bay Holdings, 618
F. App’x 765, 767 (5th Cir. 2015) (“Citizenship is based
on domicile, i.e., where an individual resides and in­
tends to remain.”). Defendant is also a citizen of Texas.
Mot. at 4. Thus, both parties are citizens of Texas, so
the Court does not have diversity jurisdiction over this
matter.
Next, the Court considers whether it has federal
question jurisdiction. “A district court has original fed­
eral question jurisdiction over ‘all civil actions arising
under the Constitution, laws, or treaties of the United
States’” Gutierrez u. Flores, 543 F.3d 248, 251 (5th Cir.
2008) (quoting 28 U.S.C. § 1331). “Under the wellpleaded complaint rule, ‘a federal court has original or
removal jurisdiction only if a federal question appears
on the face of the plaintiff’s well pleaded complaint.”
Id. at 251-52. Plaintiff failed to plead any federal law
basis supporting his allegations. See generally Compl.
In his Response to the instant Motion, Plaintiff asserts
that his claim arises under the First Amendment to
the United States Constitution because he is petition­
ing the government for a redress of his grievance. Resp.
at 1, ECF No. 14.2 However, the First Amendment does
not set the parameters of the Court’s jurisdiction, and
it cannot be a basis for jurisdiction in this case because
Plaintiff is suing a private party. DuBois v. Bradley,
No. CIV.A. H-13-0252, 2013 WL 3805751, at *4 (S.D.
Tex. July 19, 2013) (“[T]he First Amendment does not
2 In his Response, Plaintiff also appears to request that the
Court strike Defendant’s Motion and Answer as untimely. Resp.
at 1. The Court, in its discretion, denies Plaintiff’s request.

App. 7
regulate the conduct of private parties. In other words,
the First Amendment only protects a person from the
government, or a particular state actor, not from pri­
vate citizens.” (emphasis removed and internal quota­
tion marks omitted)).
Moreover, the First Amendment would have pre­
vented the Court from asserting jurisdiction even if
Plaintiff’s claim had a federal law basis. “The Supreme
Court has recognized the right of religious organiza­
tions to control their internal affairs.” Cannata v. Cath­
olic Diocese ofAustin, 700 F.3d 169,172 (5th Cir. 2012).
That right includes the freedom “to decide for them­
selves, free from state interference, matters of church
government as well as those of faith and doctrine.” Id.
(quoting Kedroffv. St. Nicholas Cathedral, 344 U.S. 94,
115-16 (1952)). This is because “it. . . would lead to the
total subversion of such religious bodies, if any one ag­
grieved by one of their decisions could appeal to the
secular courts and have them reversed.” Watson v.
Jones, 80 U.S. 679, 728-29 (1871). Thus, “[i]t is a core
tenet of First Amendment jurisprudence that, in re­
solving civil claims, courts must refrain from intruding
upon internal matters of church governance.” Sonnier
v. Roman Catholic Diocese of Lafayette, No. 6:16-CV1229, 2017 WL 778153, at *4 (W.D. La. Jan. 18, 2017).
Plaintiff’s allegations concern internal matters of
church governance. Therefore, the Court is without ju­
risdiction to decide this dispute. Accordingly, the Court
lacks subject matter jurisdiction over this matter, so it
must dismiss the case.

App. 8
IT IS HEREBY ORDERED that Defendant Diocese of El Paso, Texas’ “Motion to Dismiss” (ECF No.
11) is GRANTED.
IT IS FURTHER ORDERED that the Clerk of
the Court shall CLOSE this cause after docketing the
Final Judgment to be issued separately on this day.
So ORDERED and SIGNED this 14 day of
March 2019.
/s/ David C. Guaderrama
DAVID C. GUADERRAMA
UNITED STATES
DISTRICT JUDGE

App. 9
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF TEXAS
EL PASO DIVISION
FREDERICK COLLINS §
FERMIN,
§
Plaintiff,

§
§

v.

§ EP-18-CV-00327-DCG

DIOCESE OF
EL PASO, TEXAS,

§
§
§
§

Defendant.

FINAL JUDGMENT
In accordance with the Order issued this date in
this action, the Court hereby enters, pursuant to Fed­
eral Rule of Civil Procedure 58, its Final Judgment dis­
posing of this action in its entirety. There being no just
cause for delay, this is a FINAL and APPEALABLE
judgment.
IT IS ORDERED that Plaintiff Frederick Collins
Fermin’s Complaint (ECF No. 1) is DISMISSED
WITHOUT PREJUDICE.
IT IS FURTHER ORDERED that each side
shall bear its own attorney’s fees and costs. IT IS
MOREOVER ORDERED that all pending motions, if
any, are denied as MOOT and the Clerk of Court
SHALL CLOSE this matter.

App. 10
So ORDERED and SIGNED this 14th day of
March 2019.
/s/ David C. Guaderrama
DAVID C. GUADERRAMA
UNITED STATES
DISTRICT JUDGE

App. 11
IN THE UNITED STATES DISTRICT COURT
FOR WESTERN DISTRICT OF TEXAS
DIVISION OF EL PASO
FREDERICK COLLINS
FERMIN Plaintiff,
V.
PRIEST OF ST. MARYMARFA, TEXAS
79843 DIOCESE OF
EL PASO, TEXAS

CIVIL ACTION NO.
EP18CV00327

Defendant.
COMPLAINT AGAINST ROMAN CATHOLIC
CHURCH’S PRIEST OF ST. MARY-MARFADIOCESE OF EL PASO, TEXAS UPON BEING
BAPTIZED WITH GRAVEN IMAGE OF CHRIST
JESUS’S BODY ON A CROSS WHICH IS IN VIO­
LATION OF ISAIAH CHAPTER 42 VERSE 8, AND
EXODUS CHAPTER 20 VERSE 4 TO 6.
1.

Court’s jurisdiction is First Amendment of
U.S. Constitution and Title 28, U.S. Code Sec­
tion 1331 and Section 1332. Venue is through
being baptized at catholic church in 1925 at
Marfa, Texas. Statute of limitation is based on
allegation of conspiracy to interfere with
Plaintiff’s rights at age of 60 days, which is
subject to delayed discovery rule of legal
Texas doctrine.

2.

Using Cross designed with likeness of Christ
Jesus’ body for communication or prayer with
God is in violation of God’s law pursuant to

App. 12
Isaiah chapter 42 verse 8, and Exodus chapter
20, verse 4 to 6.
3.

Evidence that Christ Jesus did not die on a
cross is the Holy Scriptures (Bible)

4.

Part of complaint is all catholic nuns use cross
for meditation and prayer which is disobedi­
ent to Christ Jesus’s command for failure to
comply with John chapter 8, verse 32.

5.

key for litigation is god of this system of
things, 2 Corinthians ch. 4, verse 4, that reads:
“Among whom the god of this system of things
has blinded the minds of the unbelievers that
illumination of the glorious, good news about
Christ who is the image of God might not
shine through”

6.

Upon petition, individual’s prayer must use
Christ Jesus’s standard prayer in Matthew
chapter 6, verse 9 to 13, next is petitioner’s
request.

7.

It is Plaintiff’s opinion that it is time for the
General Public to use commonsense in the
correct interpretation of the Holy Bible, and
their prayer may be answered if it meets
God’s requirements.

BISHOPS AND PRIESTS HAVE
DEFAULTED CODE OF PASTORAL
CONDUCT AND THEIR OATH OF OFFICE
8.

Plaintiff’s demand for judgment, is based on
defendant’s false misleading method of com­
munication with God, which constitutes

App. 13
conspiracy to interfere with Jehovah’s laws
and Christ Jesus’ instructions which is per­
sonal injury to plaintiff because of incom­
petent representative.
9.

Plaintiff’s money damages are only the
amount that is required to file lawsuit as
demanded in 28 U.S.C. Section 1332 & court
costs
Respectfully submitted,
/s/ Frederick Collins Fermin
Frederick Collins Fermin,
In Pro Se
13906 Norland Drive
San Antonio, Texas 78232-4921
Phone # 1-210-265-3455
fredpowerball@yahoo.com

